VA Office of Inspector General
                                 OFFICE OF AUDITS AND EVALUATIONS


                                                                       Inspection of 

                                                                     VA Regional Office 

                                                                    White River Junction, 

                                                                          Vermont 





                                                                                    September 30, 2014
                                                                                      14-02889-310
                                 ACRONYMS

FY           Fiscal Year
OIG          Office of Inspector General
RVSR         Rating Veterans Service Representative
SMC          Special Monthly Compensation
SAO          Systematic Analysis of Operations
TBI          Traumatic Brain Injury
VA           Department of Veterans Affairs
VARO         Veterans Affairs Regional Office
VBA          Veterans Benefits Administration
VSC          Veterans Service Center




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                           Telephone: 1-800-488-8244 

                          Email: vaoighotline@va.gov


                 (Hotline Information: www.va.gov/oig/hotline) 

                 Report Highlights: Inspection of VA
                 Regional Office White River Junction, VT

Why We Did This Review                          submitted because of a lack of management
                                                oversight to ensure staff completed the
The Veterans Benefits Administration            SAOs correctly. VARO staff did not timely
(VBA) has 56 VA Regional Offices                or accurately complete 6 of 27 proposed
(VAROs) and a Veterans Service Center           benefits    reduction     cases    because
(VSC) in Cheyenne, Wyoming, that process        management did not prioritize this
disability claims and provide a range of        workload.
services to veterans. We evaluated the
White River Junction VARO to see how            What We Recommended
well it accomplishes this mission. Claims
processing that lacks compliance with VBA       We recommended the VARO Director
procedures can result in the risk of paying     implement a plan to ensure staff timely
inaccurate and unnecessary financial            process temporary 100 percent disability
benefits.    Office of Inspector General        evaluations and review 33 such cases
benefits inspectors conducted its VARO          remaining from our inspection universe.
inspection work during May to June 2014.        The Director should provide refresher
                                                training and strengthen the additional level
What We Found                                   of review for SMC cases, ensure SAOs are
                                                complete, and implement a plan to ensure
Overall, VARO staff did not accurately          management oversight and processing of
process 11 (22 percent) of 49 disability        benefits reduction cases.
claims reviewed. We sampled claims we
considered at higher risk of processing         Agency Comments
errors, thus these results do not represent
this VARO’s overall disability claims           The Director of the White River Junction
processing accuracy rate.                       VARO concurred with all recommendations.
                                                Management’s      planned     actions    are
Specifically, 6 of 30 temporary 100 percent     responsive and we will follow up as required
disability evaluations we reviewed were         on all actions.
inaccurate, generally because management
did not ensure timely processing of
temporary 100 percent cases requiring
reduced      evaluations     and     medical
reexaminations. VARO staff incorrectly
processed 1 of 10 traumatic brain injury
claims. Staff also incorrectly processed 4 of
                                                         LINDA A. HALLIDAY
9 special monthly compensation (SMC)
                                                      Assistant Inspector General
claims due to a lack of training and an
                                                      for Audits and Evaluations
ineffective second-level review process.

All 11 Systematic Analyses of Operations
(SAOs) were either incomplete or not
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 


Results and Recommendations ........................................................................................................2
 


    I. 	 Disability Claims Processing ...............................................................................................2
 


           Finding 1  	 White River Junction VARO Could Improve Disability Claims

                        Processing Accuracy.......................................................................................2 


                               Recommendations...........................................................................................7
 

  II. Management
      	          Controls ...........................................................................................................9 


           Finding 2           White River Junction VARO Lacked Oversight To Ensure Complete 

                               SAOs ...............................................................................................................9
 

                               Recommendations.........................................................................................10 


           Finding 3           White River Junction VARO Lacked Oversight To Ensure Prompt 

                               Action On Proposed Benefits Reductions.....................................................11 


                               Recommendation ..........................................................................................12 


Appendix A                     VARO Profile and Scope of Inspection ........................................................13
 

Appendix B                     Inspection Summary .....................................................................................15
 

Appendix C                     VARO Director’s Comments........................................................................16
 

Appendix D                     OIG Contact and Staff Acknowledgments ...................................................19
 

Appendix E                     Report Distribution .......................................................................................20 

                                                   Inspection of the VARO White River Junction, VT



                    INTRODUCTION
Objective		         The Benefits Inspection Program is part of the Office of Inspector General’s
                    (OIG) efforts to ensure our Nation’s veterans receive timely and accurate
                    benefits and services. The Benefits Inspection Divisions contribute to
                    improved management of benefits processing activities and veterans’
                    services by conducting onsite inspections at VA Regional Offices (VAROs).
                    These independent inspections provide recurring oversight focused on
                    disability compensation claims processing and performance of Veterans
                    Service Center (VSC) operations. The objectives of the inspections are to:

                    		 Evaluate how well VAROs are accomplishing their mission of providing
                        veterans with access to high-quality benefits and services.
                    		 Determine whether management controls ensure compliance with VA
                        regulations and policies; assist management in achieving program goals;
                        and minimize the risk of fraud, waste, and other abuses.
                    		 Identify and report systemic trends in VARO operations.

                    In addition to this oversight, inspections may examine issues or allegations
                    referred by VA employees, members of Congress, or other stakeholders.

Other                  Appendix A includes details on the VARO and the scope of our
Information             inspection.
                    		 Appendix B outlines criteria we used to evaluate each operational
                        activity and a summary of our inspection results.
                    		 Appendix C provides the White River Junction VARO Director’s
                        comments on a draft of this report.




VA Office of Inspector General                                                                  1
                                                            Inspection of the VARO White River Junction, VT



                      RESULTS AND RECOMMENDATIONS
                      I. Disability Claims Processing

Claims                The OIG Benefits Inspection team focused on accuracy in processing
Processing            temporary 100 percent disability evaluations, traumatic brain injury (TBI)
Accuracy
                      claims, and special monthly compensation (SMC) and ancillary benefits. We
                      evaluated these claims processing issues and their impact on veterans’
                      benefits.

 Finding 1 	          White River Junction VARO Could Improve Disability Claims
                      Processing Accuracy

                      The White River Junction VARO did not consistently process temporary
                      100 percent disability evaluations, TBI-related cases, and entitlement to
                      SMC benefits. We sampled claims related only to specific conditions that
                      we considered at higher risk of processing errors. As a result, the errors
                      identified do not represent the universe of disability claims or the overall
                      accuracy rate at this VARO. Overall, VARO staff incorrectly processed
                      11 of the total 49 disability claims we sampled, resulting in 66 improper
                      monthly payments to 5 veterans totaling $164,591. The following table
                      reflects the errors affecting, and those with the potential to affect, veterans’
                      benefits processed at the White River Junction VARO.

          Table 1. White River Junction VARO Disability Claims Processing Accuracy for
                            Three High-Risk Claims Processing Areas
                                             Claims                  Claims
                                                                                                Claims
                                          Inaccurately             Inaccurately
          Type of        Claims                                                               Inaccurately
                                           Processed:               Processed:
          Claim         Reviewed                                                               Processed:
                                       Affecting Veterans’      Potential To Affect
                                                                                                 Total
                                             Benefits           Veterans’ Benefits
        Temporary
        100 Percent
                            30                    0                        6                      6
        Disability
        Evaluations
        TBI Claims          10                    1                        0                      1
        SMC and
        Ancillary            9                    4                        0                      4
        Benefits
         Total              49                    5                        6                     11
        Source: VA OIG analysis of Veterans Benefits Administration’s (VBA) temporary 100 percent disability
        evaluations paid at least 18 months, TBI disability claims completed in the second quarter fiscal year
        (FY) 2014, and SMC and ancillary benefits claims completed in April 2013 through March 2014




 VA Office of Inspector General                                                                                  2
                                                    Inspection of the VARO White River Junction, VT


Temporary           VARO staff incorrectly processed 6 of 30 temporary 100 percent disability
100 Percent         evaluations we reviewed. VBA policy requires a temporary 100 percent
Disability
Evaluations
                    disability evaluation for a service-connected disability following surgery or
                    when specific treatment is needed. At the end of a mandated period of
                    convalescence or treatment, VARO staff must request a follow-up medical
                    examination to help determine whether to continue the veteran’s 100 percent
                    disability evaluation.

                    For temporary 100 percent disability evaluations, VSC staff must input
                    suspense diaries in VBA’s electronic system. A suspense diary is a
                    processing command that establishes a date when VSC staff must schedule a
                    medical reexamination. As a suspense diary matures, the electronic system
                    generates a reminder notification to alert VSC staff to schedule the medical
                    reexamination. VSC staff then have 30 days to process the reminder
                    notification by establishing an appropriate control to initiate action.

                    When the VARO obtains evidence that a lower disability evaluation would
                    result in reduced compensation payments, VSC staff must inform the
                    beneficiary of the proposed reduction in benefits. In order to provide
                    beneficiaries due process, VBA allows 60 days for the veteran to submit
                    additional evidence to show that compensation payments should continue at
                    their present level. On the 65th day following due process notification,
                    action is required to reduce the evaluation and thereby minimize
                    overpayments.

                    Without effective management of these temporary 100 percent disability
                    ratings, VBA is at increased risk of paying inaccurate financial benefits. We
                    determined that VARO staff incorrectly processed 6 of 30 temporary
                    100 percent disability evaluations we reviewed. All of these cases had the
                    potential to affect veterans’ benefits. Details on these errors follow.

                    		 On March 17, 2014, VSC staff proposed reducing a veteran’s temporary
                        100 percent evaluation for prostate cancer. Staff had determined the
                        100 percent disability evaluation was no longer needed since the
                        veteran’s health had improved. At the time of our review in June 2014,
                        VSC staff had not taken action to reduce the evaluation. As a result, the
                        veteran will continue to receive incorrect monthly benefits at the
                        100 percent disability rate.
                    		 VSC staff proposed to reduce a veteran’s temporary 100 percent
                        evaluation for prostate cancer to 40 percent and provided notification of
                        the proposed reduction on February 19, 2014. At the time of our review
                        in June 2014, VSC staff had not reduced the evaluation. Because timely
                        action was not taken, the veteran will continue to be paid at the
                        100 percent disability rate, higher than what is supported by medical
                        evidence.



VA Office of Inspector General                                                                   3
                                                    Inspection of the VARO White River Junction, VT


                    		 A veteran requested a personal hearing on March 13, 2013, in response to
                        a proposed benefits reduction. At the time of our review in June 2014,
                        the veteran was still waiting for the opportunity to provide evidence to
                        refute the proposed reduction. Until VARO staff conduct the requested
                        hearing, no action can be taken on the proposed reduction and monthly
                        benefits will continue to be paid at the 100 percent disability rate.
                    		 VSC staff received a system-generated reminder notification in
                        April 2014 indicating the veteran needed a medical reevaluation of his
                        prostate cancer. As of June 2014, staff had not requested the
                        reexamination. Until VSC staff evaluate the veteran’s condition to
                        determine whether he continues to warrant a 100 percent evaluation,
                        payments continue at the existing 100 percent disability rate and
                        improper payments may occur.
                    		 In April 2002, a Rating Veterans Service Representative (RVSR)
                        confirmed and continued a temporary 100 percent evaluation for prostate
                        cancer and established a September 2002 suspense diary. As of June
                        2014, VSC staff had not scheduled the medical reexamination to evaluate
                        the veteran’s prostate cancer.       Until VSC staff schedule the
                        reexamination, no action can be taken to reevaluate the veteran’s
                        condition, payments continue at the existing 100 percent disability rate
                        and improper payments may occur.
                    		 An RVSR prematurely assigned a temporary 100 percent evaluation
                        when service connection for prostate cancer was granted in May 2006.
                        From the initial rating in 2006, until our review in 2014, VSC staff never
                        requested a medical reexamination to evaluate the veteran’s prostate
                        cancer. Until VSC staff reevaluate the veteran’s condition, payments
                        will continue at the 100 percent rate and improper payments may occur.
                        The lack of follow-up on the claim over 8 years does not represent
                        adequate financial stewardship for a temporary 100 percent disability
                        evaluation.

                    Generally, processing inaccuracies occurred because VARO management
                    did not ensure timely action to reduce ratings and schedule reexaminations
                    for temporary 100 percent disability claims. Further, management advised
                    us that Eastern Area Headquarters and VBA’s Compensation Service
                    provided instructions to not complete claims that were less than 125 days
                    old. As a result, the VARO may continue benefits payments and overpay
                    veterans who are no longer entitled to temporary 100 percent evaluations.
                    We provided VARO management with 33 claims from our universe of 63 for
                    its review to determine if action is required.




VA Office of Inspector General                                                                   4
                                                    Inspection of the VARO White River Junction, VT


Follow-Up to        In our previous report, Inspection of the VA Regional Office, White River
Prior VA OIG        Junction, Vermont (Report No. 11-00518-54, January 17, 2012), we reported
Inspection
                    VARO staff incorrectly processed 15 of 30 temporary 100 percent disability
                    evaluations we reviewed. The most frequent processing errors occurred
                    because staff did not establish suspense diaries in the electronic system to
                    ensure they received reminder notifications to schedule medical
                    reexaminations to support the evaluations.         We did not provide a
                    recommendation in this inspection report as VBA had implemented a
                    national review plan to address this issue. To assist in implementing the
                    agreed upon review, we provided the VARO with 20 claims remaining from
                    our universe of 50 temporary 100 percent disability evaluations.

                    During our June 2014 inspection, we found cases where VSC staff delayed
                    scheduling future medical reexaminations; however, we identified no cases
                    where staff did not establish suspense diaries in the electronic system to
                    generate reminders to follow up on temporary 100 percent disability
                    evaluations. As such, we made no further recommendation in this area.

TBI Claims          The Department of Defense and VBA commonly define a TBI as a
                    traumatically induced structural injury or a physiological disruption of brain
                    function caused by an external force. The major residual disabilities of TBI
                    fall into three main categories—physical, cognitive, and behavioral. VBA
                    policy requires staff to evaluate these residual disabilities.

                    In response to a recommendation in our annual report, Systemic Issues
                    Reported During Inspections at VA Regional Offices (Report
                    No.11-00510-167, May 18, 2011), VBA agreed to develop and implement a
                    strategy for ensuring the accuracy of TBI claims decisions. In May 2011,
                    VBA provided guidance to VARO Directors to implement a policy requiring
                    a second signature on each TBI case an RVSR evaluates until the RVSR
                    demonstrates 90 percent accuracy in TBI claims processing. The policy
                    indicates second-signature reviewers come from the same pool of staff as
                    those used to conduct local station quality reviews.

                    We determined VARO staff incorrectly processed 1 of 10 TBI claims—the
                    inaccuracy affected a veteran’s benefits. In this case, VARO staff assigned
                    an incorrect effective date for residuals of TBI. As a result, the veteran was
                    underpaid approximately $18,117 over a period of 16 months. Due to
                    generally processing these TBI claims correctly, we made no
                    recommendation for improvement in this area.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, White River
Prior VA OIG        Junction, Vermont (Report No. 11-00518-54, January 17, 2012), we
Inspection
                    identified one TBI case for our review and found it to be correct. Since we
                    found no error, we did not make any recommendation for improvement in
                    this area.


VA Office of Inspector General                                                                   5
                                                     Inspection of the VARO White River Junction, VT



Special Monthly     As the concept of rating disabilities evolved, VBA realized that for certain
Compensation        types of disabilities, the basic rate of compensation was not sufficient for the
and Ancillary       level of disability present. Therefore, VBA established SMC to recognize
Benefits            the severity of certain disabilities or combinations of disabilities by adding
                    an additional compensation to the basic rate of payment. SMC represents
                    payments for “quality of life” issues, such as the loss of an eye or limb, the
                    inability to naturally control bowel and bladder function, or the need to rely
                    on others for daily life activities, like bathing or eating. Generally, VBA
                    grants entitlement to SMC when the following conditions exist.

                    		 Anatomical loss or loss of use of specific organs, sensory functions, or
                        extremities
                    		 Disabilities that render the veteran permanently bedridden or in need of
                        aid and attendance
                    		 Combinations of severe disabilities that significantly affect locomotion
                    		 Existence of multiple, independent disabilities that are evaluated as 50 to
                        100 percent disabling
                    		 Existence of multiple disabilities that render the veteran in need of such a
                        degree of special skilled assistance that, without it, the veteran would be
                        permanently confined to a skilled-care nursing home

                    Ancillary benefits are secondary benefits that are considered when evaluating
                    claims for SMC. Examples of ancillary benefits are:

                    		 Dependents’ Educational Assistance under Title 38 United States Code,
                        Chapter 35
                    		 Specially Adapted Housing Grant
                    		 Special Home Adaptation Grant
                    		 Automobile and Other Conveyance and Adaptive Equipment Allowance

                    VBA policy requires staff to address the issues of SMC and ancillary
                    benefits whenever they can grant entitlement. We focused our review on
                    whether VARO staff accurately processed entitlement to SMC and ancillary
                    benefits associated with anatomical loss or loss of use of two or more
                    extremities, or bilateral blindness with visual acuity of 5/200 or worse.

                    VARO staff incorrectly processed four of nine claims involving SMC
                    benefits—all four affected veterans’ benefits. The errors resulted in
                    overpayments totaling approximately $146,474, representing 50 improper
                    monthly payments from December 2012 to May 2014. Following are
                    descriptions of these errors.

                    		 In three cases, RVSRs incorrectly granted higher levels of SMC requiring
                        two separate 100 percent disability evaluations, which the veterans did

VA Office of Inspector General                                                                     6
                                                    Inspection of the VARO White River Junction, VT


                        not have at the time of our review in May and June 2014. As a result,
                        VA overpaid three veterans approximately $141,232 over a period of
                        45 months.
                    		 An RVSR incorrectly granted SMC for a higher level of aid and
                        attendance to a veteran although the veteran did not meet the eligibility
                        requirements for this benefit. As a result, VA overpaid the veteran
                        approximately $5,242 for a period of 5 months.

                    Errors related to SMC benefits were due to an ineffective second-signature
                    review process and a lack of training. In three of the four errors we
                    identified, staff conducted an additional level of review. However, the
                    reviewer did not identify the errors that we found in our review. VSC
                    management and staff acknowledged that the second-signature reviews on
                    these cases were not thorough. Further, our review of all four errors
                    indicated that VARO staff misinterpreted VBA policy for rating cases with
                    higher levels of SMC.

                    Interviews with VARO management and staff stated that more training
                    would be helpful in preventing these types of errors. VARO staff provided
                    documentation showing that SMC training was last held in April 2013. As a
                    result of the errors, veterans did not always receive accurate benefits
                    payments. The deficiencies identified, if unaddressed, increase the risks
                    associated with VBA’s efforts to consistently process and ensure accuracy of
                    claims processing.

                    Recommendations

                    1.		 We recommended the White River Junction VA Regional Office Director
                         implement a plan to ensure staff timely process rating reductions and
                         medical reexamination requests for temporary 100 percent disability
                         evaluations.
                    2.		 We recommended the White River Junction VA Regional Office Director
                         conduct a review of the 33 temporary 100 percent disability evaluations
                         remaining from our inspection universe and take appropriate action.
                    3.		 We recommended the White River Junction VA Regional Office Director
                         provide staff with refresher training on the proper processing of special
                         monthly compensation claims and implement a plan to assess the
                         effectiveness of that training.
                    4.		 We recommended the White River Junction VA Regional Office Director
                         implement a plan to strengthen the additional level of review for special
                         monthly compensation claims.

Management          The VARO Director concurred with our recommendations and indicated the
Comments            Veterans Service Center Manager and Coach will review future exam diaries



VA Office of Inspector General                                                                   7
                                                  Inspection of the VARO White River Junction, VT


                    weekly. Further, the management analyst in the Office of the Director will
                    conduct reviews to ensure compliance with the plan already in place.

                    Staff completed their review of the 33 temporary 100 percent disability
                    evaluations identified and determined 15 were completed, 7 reductions were
                    pending, 6 were pending VA examinations, and 5 required no action as
                    permanency had been established. The Director stated a second level review
                    was required for all decisions involving SMC and SMC refresher training
                    was scheduled for September 30, 2014.

OIG Response        The Director’s comments and actions are responsive to the recommendations.
                    We will follow up on management’s actions during future inspections.




VA Office of Inspector General                                                                 8
                                                    Inspection of the VARO White River Junction, VT


                    II. Management Controls

Systematic          We assessed whether VARO management had adequate controls in place to
Analysis of         ensure complete and timely submission of Systematic Analyses of
Operations
                    Operations (SAOs). We also considered whether VSC staff used adequate
                    data to support analyses and recommendations identified within each SAO.
                    An SAO is a formal analysis of an organizational element or operational
                    function. SAOs provide an organized means of reviewing VSC operations to
                    identify existing or potential problems and propose corrective actions.
                    VARO management must publish annual SAO schedules designating the
                    staff required to complete the SAOs by specific dates. The VSC Manager is
                    responsible for ongoing analysis of VSC operations, including completing
                    11 SAOs annually.

Finding 2           White River Junction VARO Lacked Oversight To Ensure
                    Complete SAOs

                    Nine SAOs were incomplete because recommendations lacked time frames
                    for implementation and follow-up, and two SAOs were not submitted for
                    approval at all. The VSC manager did not provide adequate oversight to
                    ensure staff completed SAOs in accordance with VBA policy. Management
                    also did not follow up on corrective actions to improve VSC operations when
                    existing and potential problems were identified. Interviews with VARO
                    management revealed a lack of awareness that recommendations required
                    time frames for completion. VSC management acknowledged that more
                    attention was needed in this area, and additional training would be beneficial.
                    During our inspection, VARO management informed us it was developing a
                    mechanism for tracking and implementing SAO recommendations.
                    However, due to the early stage of development, we could not assess the
                    effectiveness of this tool.

                    The Claims Processing Timeliness SAO was an example of an incomplete
                    SAO. We identified multiple instances among proposed benefits reduction
                    cases we reviewed where VARO staff did not take timely action to reduce
                    payments as appropriate. If the White River Junction VARO had properly
                    completed the Claims Processing Timeliness SAO, it may have detected
                    these problems earlier and developed recommendations to resolve them
                    before we did as part of our inspection.

Follow-Up to        In our previous report, Inspection of the VA Regional Office, White River
Prior VA OIG        Junction, Vermont (Report No. 11-00518-54, January 17, 2012), we reported
Inspection
                    5 of the 12 mandated SAOs were untimely and missing required elements
                    and analyses. Generally, these errors occurred because management lacked
                    oversight and adequate controls over the SAO process. We recommended
                    that the White River Junction VARO Director develop and implement a plan
                    to ensure that staff annually schedule all 12 mandatory SAOs and address all

VA Office of Inspector General                                                                   9
                                                     Inspection of the VARO White River Junction, VT


                    required elements of each analysis. The Acting VARO Director concurred
                    with our recommendation and amended the office Workload Management
                    Plan. The amended plan required a Reports Tracking worksheet to centrally
                    organize and track all mandatory SAOs. On June 27, 2012, the OIG closed
                    this recommendation after the White River Junction VARO provided a copy
                    of the Reports Tracking worksheet.

                    During our June 2014 inspection, VSC staff revealed they did not fully
                    implement the Reports Tracking worksheet due to a general lack of
                    understanding. For example, the worksheet required SAOs to be sent to the
                    Director’s office for review and approval; however, we found that once an
                    SAO was sent to the Director’s office, no follow-up from VSC management
                    occurred. As a result, effective oversight and controls over the SAO process
                    were still needed, and we saw the management of SAOs had worsened since
                    our last inspection.
                    Recommendations

                    5.		 We recommended the White River Junction VA Regional Office Director
                         implement a plan, and assess the effectiveness of the plan, to ensure
                         completion, and adequate and continuous oversight of Systematic
                         Analyses of Operations requirements.
                    6.		 We recommended the White River Junction VA Regional Office Director
                         implement a plan for training, and assess the effectiveness of the training,
                         to ensure completion of Systematic Analyses of Operations requirements.

Management          The VARO Director concurred with our recommendations and staff
Comments            completed all past due SAOs. Further, staff implemented an SAO
                    SharePoint site to facilitate compliance with SAO requirements. The VSC
                    manager received SAO training while attending a leadership conference in
                    Atlanta, GA in June 2014. Training was provided to the Coach in June 2014.

OIG Response        The Director’s comments and actions are responsive to the recommendations.
                    We will follow up on management’s actions during future inspections.

Benefits            VBA policy provides for the payment of compensation to veterans for
Reductions          conditions they incurred or aggravated during military service. The amount
                    of monthly compensation a veteran is entitled to may change because his or
                    her service-connected disability may improve.             Improper payments
                    associated with benefit reductions generally occur when beneficiaries receive
                    payments they are not entitled to because VAROs do not take the actions
                    required to ensure correct payments for their levels of disability.

                    When the VARO obtains evidence that a lower disability evaluation would
                    result in a reduction or discontinuance of current compensation payments,
                    VSC staff must inform the beneficiary of the proposed reduction in benefits.
                    In order to provide beneficiaries due process, VBA allows 60 days for the

VA Office of Inspector General                                                                    10
                                                    Inspection of the VARO White River Junction, VT


                    veteran to submit additional evidence to show that compensation payments
                    should continue at their present level. If the VARO does not receive
                    additional evidence within that period, RVSRs must make a final
                    determination to reduce or discontinue the benefit. On the 65th day
                    following due process notification, action is required to reduce the evaluation
                    in order to minimize overpayments.

                    On April 3, 2014, VBA leadership modified its policy regarding the
                    processing of claims requiring benefits reductions. The new policy no longer
                    includes the requirement for VARO staff to take “immediate action” to
                    process these reductions. In lieu of merely removing the vague standard,
                    VBA should have provided clearer guidance on prioritizing this work to
                    ensure sound financial stewardship of these monetary benefits.

Finding 3 	         White River Junction VARO Lacked Oversight To Ensure Prompt
                    Action On Proposed Benefits Reductions

                    VARO staff delayed or incorrectly processed 6 of 27 cases involving benefits
                    reductions—4 affected veterans’ benefits and 2 had the potential to affect
                    veterans’ benefits. These errors occurred due to a lack of emphasis on timely
                    processing benefits reductions.       Processing inaccuracies resulted in
                    overpayments totaling approximately $6,812 and an underpayment of
                    approximately $341, representing 13 improper monthly payments to
                    4 veterans from July 2013 to May 2014.

Processing          Processing delays occurred in 5 of 27 claims that required rating decisions to
Delays              reduce or discontinue benefits. In the case with the most significant
                    overpayment, VSC staff sent a letter to a veteran on
                    January 31, 2013, proposing to reduce the disability evaluation for the
                    veteran’s prostate cancer and discontinue entitlement to SMC. The due
                    process period expired on April 6, 2013. However, staff did not take action
                    to reduce the evaluation until February 24, 2014. As a result of the delay,
                    VA overpaid the veteran approximately $3,385 over a period of 10 months.

                    In three of the five cases, processing delays averaged four months from the
                    time staff should have taken action to reduce benefits. In the remaining two
                    cases, we could not define a date range for the delays. In one case, VSC staff
                    did not release the due process letter in the same month as the proposed
                    decision, as required by VBA policy. In the other case, the due process letter
                    was returned as undeliverable on November 20, 2012. VSC staff did not
                    identify a correct address as required and no action was taken to resend the
                    due process letter until September 10, 2013. Further, VSC staff did not
                    timely schedule a hearing for the veteran to present evidence in response to
                    the proposed benefits reduction.

                    Generally, these delays occurred because VARO management had
                    competing priorities. Although the station’s Workload Management Plan

VA Office of Inspector General                                                                  11
                                                     Inspection of the VARO White River Junction, VT


                    directed staff to process rating reduction cases immediately, delays occurred
                    because the VARO did not consider these cases its first priority. VBA does
                    not track or measure the timeliness of processing proposed rating reductions.
                    Interviews with management confirmed that rating reductions were a lower
                    priority as the VARO was directed by Eastern Area Headquarters to reduce
                    the current inventory of pending disability claims. Management further
                    stated these cases were easy and would not interfere with RVSRs reaching
                    their daily productions goals, if they were allowed to work these cases along
                    with the higher priority workload. As a result of the processing delays,
                    veterans received erroneous benefits payments.

Accuracy            VARO staff incorrectly processed 1 of 27 cases involving proposed benefits
Errors              reductions. In this case, VSC staff assigned an incorrect effective date for the
                    disability reduction. As a result, VA underpaid the veteran approximately
                    $341 for a period of a month. The error was unique and did not constitute a
                    common trend, pattern, or systemic issue. Therefore, we made no
                    recommendation for improvement in this area.

                    Recommendation

                    7.		 We recommended the White River Junction VA Regional Office Director
                         implement a plan to ensure oversight and processing of benefits
                         reduction cases.

Management          The VARO Director concurred with our recommendation and amended the
Comments            workload management plan to follow VBA policy and identify and control
                    cases with the potential to cause over/underpayments.

OIG Response        The Director’s comments and actions are responsive to the recommendation.
                    We will follow up on management’s actions during future inspections.




VA Office of Inspector General                                                                   12
                                                    Inspection of the VARO White River Junction, VT


Appendix A          VARO Profile and Scope of Inspection

Organization        The White River Junction VARO administers a variety of services and
                    benefits including compensation and pension, and vocational rehabilitation
                    and employment. Other services provided include benefits counseling,
                    outreach services for the homeless, elderly, minority and women veterans,
                    and public affairs.

Resources           As of May 2014, the White River Junction VARO reported a staffing level of
                    25 full-time employees. Of this total, the VSC had 22 employees assigned.

Workload            As of May 2014, VBA reported 738 pending compensation claims. On
                    average claims were pending 179.8 days—64.8 days greater than the national
                    target of 115.

Scope and           VBA has 56 VAROs and a VSC in Cheyenne, Wyoming, that process
Methodology         disability claims and provide a range of service to veterans. From May to
                    June 2014, we evaluated the White River Junction VARO to see how well it
                    accomplishes this mission.

                    We reviewed selected management, claims processing, and administrative
                    activities to evaluate compliance with VBA policies regarding benefits
                    delivery and nonmedical services provided to veterans and other
                    beneficiaries. We interviewed managers and employees and reviewed
                    veterans’ claims folders. Prior to conducting our onsite inspection, we
                    coordinated with VA OIG criminal investigators to provide a briefing
                    designed to alert VARO staff to the indicators of fraud claims processing.

                    Our review included 30 (48 percent) of 63 temporary 100 percent disability
                    evaluations selected from VBA’s Corporate Database.              These cases
                    represented all instances in which VARO staff had granted temporary
                    100 percent disability evaluations for at least 18 months as of April 19, 2014.
                    This is generally the longest period a temporary 100 percent disability
                    evaluation may be assigned without review, according to VBA policy. We
                    provided VARO management with 33 claims remaining from our universe of
                    63 for its review. We reviewed 10 (91 percent) of 11 disability claims
                    available related to TBI that the VARO completed from January through
                    March 2014. We examined all 9 veterans’ claims involving entitlement to
                    SMC and related ancillary benefits that VARO staff completed from
                    April 2013 through March 2014.

                    Prior to VBA consolidating Fiduciary Program Activities nationally, each
                    VARO was required to complete 12 SAOs. However, since Fiduciary
                    consolidation, the VAROs are now required to complete 11 SAOs.
                    Therefore, we reviewed the 11 SAOs related to VARO operations.
                    Additionally, we looked at 27 (79 percent) of 34 completed claims that
                    proposed reductions in benefits from January through March 2014.

VA Office of Inspector General                                                                  13
                                                    Inspection of the VARO White River Junction, VT


                    Where we identify potential procedural inaccuracies, we provide this
                    information to help the VARO understand the procedural improvements it
                    can make for enhanced stewardship of financial benefits. We do not provide
                    this information to require the VARO to adjust specific veterans’ benefits.
                    Processing any adjustments per this review is a VBA program management
                    decision.

Data Reliability    We used computer-processed data from the Veterans Service Network’s
                    Operations Reports and Awards. To test for reliability, we reviewed the data
                    to determine whether any data were missing from key fields, included any
                    calculation errors, or were outside the time frame requested. We also
                    assessed if the data contained obvious duplication of records, alphabetic or
                    numeric characters in incorrect fields, or illogical relationships among data
                    elements. Further, we compared veterans’ names, file numbers, Social
                    Security numbers, VARO numbers, dates of claim, and decision dates as
                    provided in the data received with information contained in the 76 claims
                    folders we reviewed related to temporary 100 percent disability evaluations,
                    TBI claims, SMC and ancillary benefits, and completed claims related to
                    benefit reductions.

                    Our testing of the data disclosed that they were sufficiently reliable for our
                    inspection objectives. Our comparison of the data with information
                    contained in the veterans’ claims folders reviewed in conjunction with our
                    inspection of the VARO did not disclose any problems with data reliability.

                    As reported by VBA’s STAR program as of May 2014, the overall
                    claims-based accuracy of the VARO’s compensation rating related decisions
                    was 86.5 percent. We did not test the reliability of this data.

Inspection          We conducted this inspection in accordance with the Council of the
Standards           Inspectors General on Integrity and Efficiency’s Quality Standards for
                    Inspection and Evaluation.




VA Office of Inspector General                                                                  14
                                                            Inspection of the VARO White River Junction, VT


Appendix B           Inspection Summary

                     Table 2 reflects the operational activities inspected, applicable criteria, and
                     whether or not we had reasonable assurance of VARO compliance.

                     Table 2. White River Junction VARO Inspection Summary
           Operational                                                                  Reasonable
            Activities                               Criteria                           Assurance of
            Inspected                                                                   Compliance
        Disability Claims
           Processing
       Temporary 100 Percent     Determine whether VARO staff properly reviewed              No
       Disability Evaluations    temporary 100 percent disability evaluations.
                                 (38 CFR 3.103(b)) (38 CFR 3.105(e)) (38 CFR
                                 3.327) (M21-1 MR Part IV, Subpart ii, Chapter 2,
                                 Section J) (M21-1MR Part III, Subpart iv,
                                 Chapter 3, Section C.17.e)
       Traumatic Brain Injury    Determine whether VARO staff properly processed             Yes
       Claims                    claims for service connection for all disabilities
                                 related to in-service TBI. (FL 08-34 and 08-36)
                                 (Training Letter 09-01)
       Special Monthly           Determine whether VARO staff properly processed             No
       Compensation and          SMC and correctly granted entitlement to ancillary
       Ancillary Benefits        benefits. (38 CFR 3.350, 3.352, 3.807, 3.808, 3.809,
                                 3.809a, 4.63, and 4.64) (M21-1MR IV.ii.2.H and I)
          Management
           Controls
       Systematic Analysis of    Determine whether VARO staff properly performed             No
       Operations                formal analyses of their operations through
                                 completion of SAOs. (M21-4, Chapter 5)
       Benefits Reductions       Determine whether VARO staff timely and                     No
                                 accurately processed disability evaluation
                                 reductions or terminations. (38 CFR 3.103(b)(2)),
                                 (38 CFR 3.105(e)), (38 CFR 3.501),
                                 (M21-1MR.IV.ii.3.A.3.e), (M21-1MR.I.2.B.7.a),
                                 (M21-1MR.I.2.C), (M21-1MR.I.ii.2.f), (M21-4,
                                 Chapter 2.05(f)(4)), (Compensation & Pension
                                 Service Bulletin, October 2010)
       Source: VA OIG
       CFR=Code of Federal Regulations, FL=Fast Letter, M=Manual, MR=Manual Rewrite




VA Office of Inspector General                                                                          15
                                                                  Inspection of the VARO White River Junction, VT


Appendix C               VARO Director’s Comments


                  Department of
                  Veterans Affairs
                                                                         Memorandum
          Date:          September 24, 2014
          From:          Director, VARO White River Junction, Vermont (405/00)

          Subj:          Inspection of the VA Regional Office, White River Junction, Vermont

            To:          Linda Halliday, Assistant Inspector General for Audits and Evaluations (52)



                  1. 	   During the week of June 16 - 18, 2014, OIG conducted an inspection of the
                         Veterans Service Center operations at the White River Junction VA Regional Office.
                         Our responses to the recommendations are incorporated in the attached report.

                  2.     	The statement on page four of the report suggesting that VARO Management did
                          not timely process reductions due to guidance from Eastern Area and
                          Compensation Service is misleading. Veterans Benefits Administration policy has
                          consistently emphasized reducing the rating-related claim backlog, however
                          guidance never dictated that this workload be neglected or delayed until it was
                          pending more than 125 days. Rather, it was and continues to be, our responsibility
                          to manage multiple priorities to include the workload reviewed as a part of this audit.

                  3. 	   We appreciate the courtesy and cooperation your staff showed during the
                         Inspection. If you have any questions or would like to discuss our response, please
                         contact me at 617-303-4250.

                         (original signed by:)

                         Bradley G. Mayes 

                         Director





                         Attachment




VA Office of Inspector General                                                                                      16
                                                        Inspection of the VARO White River Junction, VT


                                                                                              Attachment
OIG Site Visit Response

                       White River Junction Veterans Affairs Regional Office

 Recommendation I:         The VA Regional Office should implement a plan to ensure staff timely
                           process rating reductions and medical reexamination requests for temporary
                           100 percent disability evaluations.
 RO Response:              Concur. Processing of future and review examinations is part of the VA
                           Regional Office Workload Management Plan. Future and review exam
                           diaries are reviewed weekly by the Coach and Veterans Service Center
                           Manager. Periodic review by the Management Analyst in the Office of the
                           Director will be instituted to ensure compliance with the plan already in
                           place. VBA requests closure of this recommendation.

 Recommendation 2:         The VA Regional Office should conduct a review of the 33 temporary 100
                           percent disability evaluations remaining from the inspection universe and
                           take appropriate action.
 RO Response:              Concur. The 33 identified cases have been reviewed. Fifteen were
                           completed, seven reductions are pending, six are pending VA examinations,
                           and five required no action as permanency had been established. VBA
                           requests closure of this recommendation.

 Recommendation 3:         The VA Regional Office should provide staff with refresher training on the
                           proper processing of special monthly compensation claims and implement a
                           plan to assess the effectiveness of that training.
 RO Response:              Concur. A second level review is required for all decisions involving special
                           monthly compensation per the attached Standard Operating Procedure
                           effective November 2011. Refresher Training is scheduled for September
                           30, 2014.

 Recommendation 4:         The VA Regional Office should implement a plan to strengthen the
                           additional level of review for special monthly compensation claims.
 RO Response:              Concur. A second level review is required for all decisions involving special
                           monthly compensation per the attached Standard Operating Procedure.
                           VBA requests closure of this recommendation.

 Recommendation 5:         The VA Regional Office should implement a plan, and assess the
                           effectiveness of the plan, to ensure completion, and adequate and
                           continuous oversight of Systematic Analyses of Operations requirements.
 RO Response:              Concur. The VA Regional Office has completed all past due SAOs. An SAO
                           SharePoint site was implemented to facilitate compliance with SAO
                           requirements. VBA requests closure of this recommendation. VBA requests
                           closure of this recommendation.

 Recommendation 6:         The VA Regional Office should implement a plan for training, and assess
                           the effectiveness of the training, to ensure completion of Systematic
                           Analyses of Operations requirements.
 RO Response:              Concur. The VSCM received SAO training while attending the VSCM
                           Leadership Conference in Atlanta, GA in June 2014. Training was provided
                           to the Coach in June 2014. An SAO SharePoint site was implemented to
                           facilitate compliance with SAO requirements and to track recommended
                           actions. VBA requests closure of this recommendation.


VA Office of Inspector General                                                                         17
                                                      Inspection of the VARO White River Junction, VT


 Recommendation 7:         The VA Regional office should implement a plan to ensure oversight and
                           processing of benefit reduction cases.
 RO Response:              Concur. The attached plan was adopted by the VA Regional Office on
                           September 19, 2014, and is being incorporated into the White River
                           Junction Workload Management Plan. VBA requests closure of this
                           recommendation.




VA Office of Inspector General                                                                      18
                                            Inspection of the VARO White River Junction, VT


Appendix D          OIG Contact and Staff Acknowledgments

                      OIG Contact 	       For more information about this report, please
                                          contact the Office of Inspector General at
                                          (202) 461-4720.
                      Acknowledgments		   Brent Arronte, Director
                                          Ed Akitomo
                                          Orlan Braman
                                          Bridget Byrd
                                          Vinay Chadha
                                          Michelle Elliott
                                          Scott Harris
                                          Dana Sullivan
                                          Nelvy Viguera Butler




VA Office of Inspector General                                                          19
                                                   Inspection of the VARO White River Junction, VT


Appendix E          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Benefits Administration
                    Assistant Secretaries
                    Office of General Counsel
                    Veterans Benefits Administration Eastern Area Director
                    VA Regional Office White River Junction Director

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                       Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget
                    U.S. Senate: Patrick J. Leahy, Bernard Sanders
                    U.S. House of Representatives: Peter Welch




                This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                 20
